simme,  W'OCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
* Est. 1923
1-800-225-6964 ‘Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

 

No.

KAROLYN GIVENS, ET AL.,
Petitioners,
Vv.
MOUNTAIN VALLEY PIPELINE, LLC,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6687 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of July, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

coe, bes EC Elite Oud h, Chl

My Commission Expires Nov 24, 2020
Notary Public Affiant 38030

 
